 U.S. Department of Agriculture
  Office of Inspector General
        Midwest Region
       Evaluation Report



 AGRICULTURAL MARKETING SERVICE
EVALUATION OF INSPECTION ACTIVITES
      AT TERMINAL MARKETS




                Audit Report No.
                01601-0003-CH
                AUGUST 2000
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                     Washington, D.C. 20250



DATE:                August 14, 2000

REPLY TO
ATTN OF:      01601-0003-Ch

SUBJECT:      Evaluation of Inspection Activities At Terminal Markets

TO:           Kathleen A. Merrigan
              Administrator
              Agricultural Marketing Service

ATTN:         David Lewis
              Deputy Administrator
              Compliance and Analysis


We have completed our evaluation of the Agricultural Marketing Service’s (AMS)
inspection activities at terminal markets. Our objective was to assist your staff in
strengthening management controls over the fresh fruit and vegetable inspection process.
We performed this work at your request.

We have concluded that no single modification to your procedures will eliminate the risk of
fraudulent activities at terminal markets. However, we have listed below our suggestions for
improvements to your agency’s existing or proposed management controls, and additional
controls that could deter or detect fraudulent activities.

BACKGROUND

The Secretary of Agriculture established AMS on April 2, 1972, under the authority of
Reorganization Plan No. 2 of 1953 (5 U.S.C. App.). AMS carries out programs authorized
by approximately 50 different statutory authorities, the primary ones being the Agricultural
Marketing Act of 1946 (7 U.S.C. 1621-1627); the Agricultural Marketing Agreement Act of
1937 (7 U.S.C. 601-602, 608a-608e, 610, 612, 614, 624, 671-674); the Perishable
Agricultural Commodities Act of 1930; the Agricultural Marketing Act of 1946; the
Agricultural Fair Practices Act; and the Food Security Act of 1985.

The Fresh Products Branch (FPB) provides inspection and standardization services for the
fresh fruit and vegetable industry. FPB maintains offices at 38 receiving markets, operates
the shipping point inspection program in Oklahoma, and technically
Kathleen A. Merrigan                                                                        2


supervises Federal/State inspection activities at 100 other receiving markets and shipping
points in 49 States and Puerto Rico.

In 1999, nine fruit and vegetable inspectors stationed at the Hunts Point Terminal Market in
the Bronx, New York, were arrested and charged with Racketeering Influenced Corrupt
Organizations (RICO) for accepting bribes for downgrading loads of produce so that
wholesalers could negotiate lower prices with producers/shippers. As a result, AMS
developed a management action plan to strengthen inspection procedures and reduce the
risk of further fraudulent activities. The original management action plan we reviewed
contained 28 points designed to improve the quality of program personnel, training
activities, and management controls. AMS subsequently revised its plan, which as of July
24, 2000, contained 25 points.

SCOPE AND METHODOLOGY

We performed this evaluation in coordination with AMS’ Compliance and Analysis Staff.
We discussed the draft management action plan and existing inspection procedures with
AMS management and staff from the FPB. We reviewed AMS’ policies, procedures, and
regulations pertaining to inspected commodities at terminal markets. We visited our New
York office to review data related to the Hunts Point investigation. We performed fieldwork
from March through May 2000.

We conducted the evaluation in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency (March 1993).

SUMMARY OF WORK PERFORMED

We assessed the merit of each management control proposal in AMS’ management
action plan. We also evaluated AMS’ inspection policies and operating procedures to
determine the effectiveness of existing management controls. Our conclusions and
suggestions are detailed below.

   1. Supervisors need to spend more time evaluating and monitoring inspection
      activities at terminal markets. Currently, supervisors in larger offices spend a
      significant percentage of their time in the office performing administrative tasks,
      rather than evaluating inspection activities at terminal markets. Supervisors in
      smaller offices spend most of their time performing inspections and very little time
      evaluating the activities of their staff. The supervisor at Hunts Point rarely conducted
      reviews of inspection activity. FPB staff stated that supervisors should be
      monitoring inspection activities, in addition to performing the administrative duties.
      We agree with AMS’ planned actions. Also, AMS has not developed policy
      manuals that describe supervisory duties.
Kathleen A. Merrigan                                                                       3


      OIG Suggestions: We suggest that supervisors conduct a minimum number of
      followup inspections. They should complete daily activity reports of their work and
      use these to evaluate individual inspectors. Also, supervisory requirements should
      be documented in a procedure manual and distributed to field offices.

   2. AMS’ current internal reviews of field office operations focus mainly on
      administrative activities. Its review of inspection activity and procedures is limited.
      In item 14 of its management action plan, AMS proposed improving its office check
      program by more vigorously monitoring inspection activities at terminal markets and
      by using database analyses to identify trends indicative of fraudulent activities. We
      agree with this planned action.

      OIG Suggestion: We suggest that AMS’ internal reviews include improved
      procedures (e.g., incorporating inspection and workload data into the analysis to
      highlight areas of concerns) that facilitate the evaluation of the performance of
      supervisors and inspectors.

   3. FPB does not analyze information related to appealed inspections. Generally,
      producers/shippers and receivers appeal AMS inspections when they believe that
      an assigned grade does not accurately reflect the quality of the commodity.
      Appeals are denied when the commodity in question has lost its identity (e.g., it has
      been commingled with similar commodities from other producers/shippers), or
      because an excessive period of time has elapsed since the inspection. Most
      commodities are perishable and can only remain in a market for a short time.

      OIG Suggestions: AMS should use data such as producer and wholesaler names,
      type of commodity, reason for an appeal, and whether the appeal was granted or
      denied, to identify trends indicative of fraudulent activities. AMS also needs to
      implement regulations which will ensure producers/shippers have adequate time to
      request an appeal inspection. Shippers should be encouraged to use lot numbers
      on their containers to identify their shipment.

   4. In item 1 of its management action plan, AMS proposed improving its training
      process.

      OIG Suggestion: We agree that AMS could provide better training to all inspectors
      in terminal markets and, in addition, emphasize ethics and fraud awareness.

   5. In item 5 of its management action plan, AMS proposed additional development of
      its database. Prior to the Hunts Point incident, AMS’ database did not include
      information that could be used to monitor inspections in terminal markets for
      fraudulent activities. FPB’s database system is now being used to generate reports
      that are being reviewed and analyzed by program management. The inclusion and
      analysis of this data should provide management with an effective system to monitor
Kathleen A. Merrigan                                                                         4


      trends indicative of fraudulent activity. If the performance at a particular market or by
      a specific inspector is outside normal expectations, it may indicate that additional
      training is needed or that illegal activities have occurred.

      OIG Suggestion: AMS should develop a strong database of information that is
      used to perform trend analyses of inspection activities across the country.

   6. In item 3 of its management action plan, AMS proposed expanded use of digital
      imaging. Originally developed as a training tool, digital imaging now gives AMS the
      ability to provide increased assurance to producers/shippers that commodities
      were properly inspected. However, all of the digital images that we observed had
      specific examples of product defects, such as a few pieces of decayed fruit, and not
      identification markings that would provide a producer with assurance that they are
      viewing the commodity they shipped. Inclusion of identification markings, such as
      box lot numbers, package labeling, and the shipping vehicle tag numbers would
      provide increased assurance to producers/shippers.

      OIG Suggestion: AMS needs to develop digital images that capture product
      damage and key identification markings of the commodity shipment.

   7. In item 12 of its management action plan, AMS proposed the use of a team
      inspection process, with team members being rotated within the terminal market
      every few weeks. This could lower the risk of fraudulent activity. However,
      implementing this process could be costly. Another alternative could be the
      traveling inspection team discussed later in this memorandum.

      OIG Suggestion: AMS should consider more cost effective alternatives to the
      team inspection concept.

   8. In item 15 of its management action plan, AMS proposed improving communication
      with the industry. We agree that AMS needs to increase customer service,
      especially with the producer/shipper industry. AMS has communicated mainly with
      members of the wholesale industry and would benefit by improving communications
      with producers/shippers and increasing producer/shipper awareness of policies
      and procedures. Also, AMS should inform producers/shippers about the procedures
      for reporting questionable activities to OIG.

      OIG Suggestions: AMS should develop a customer satisfaction questionnaire
      that would be given periodically to producers/shippers and wholesalers after
      inspections.

   9. AMS does not have an independent review team that specifically monitors inspector
      performance. Such a team would conduct unannounced inspections at terminal
Kathleen A. Merrigan                                                                     5


      markets and report to the national office. This could deter abuse and promote
      uniformity of inspections nationwide.

      OIG Suggestion: AMS should develop an oversight review team consisting of
      experienced inspectors.

  10. In item 20 of its management action plan, AMS proposed to minimize the number of
      cash transactions. AMS allows shippers to make cash payments, usually for past
      due accounts, directly to inspectors. Since AMS mediates disputes between
      producers/shippers and wholesalers, cash transactions could create the
      appearance that inspectors are not impartial.

      OIG Suggestion: AMS should eliminate all cash transactions related to the
      inspection of products at terminal markets.

  11. In item 9 of its management action plan, AMS proposed the rotation of inspectors
      within a multi-person market. However, AMS believes that it is cost prohibitive to
      rotate inspectors into different terminal markets under its current employee pay
      structure. However, it may be economically feasible to rotate supervisory inspectors
      and require a minimum vacation period, such as 2 weeks, for inspectors. AMS
      should monitor for irregularities during this period.

      OIG Suggestions: AMS should determine the feasibility of rotating supervisory
      inspectors between markets and require minimum vacation periods.

  12. Inspectors have the ability to inflate how much product is reported on inspection
      certificates and AMS does not verify this information with shipping documents.
      Thus, inspectors can avert an appeal by inflating inspected product. When a
      producer requests an appeal, it may be denied if it appears that significant portions
      of product have left the market.

      OIG Suggestion: AMS needs to establish controls to provide reasonable
      assurance as to the accuracy of product reported on inspection certificates.

  13. There is minimal communication between the Perishable Agricultural Commodities
      Act (PACA) Branch and FPB. Most complaints come to the PACA office. However,
      neither PACA nor FPB have a system to document these complaints, or
      communicate the information to the other branch. FPB could monitor the logs for
      common trends that need to be reviewed.

      OIG Suggestion: AMS should require PACA and FPB to maintain complaint logs
      and periodically report this information to each other.
Kathleen A. Merrigan                                                            6


AMS reviewed and provided comments which we considered and incorporated into this
document. We do not plan any further work at this time.



/s/

ROGER C. VIADERO
Inspector General
